No:
IN THE
SUPREME COURT OF THE UNITED STATES
MIKEL CLOTAIRE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Mikel Clotaire, pursuant to SUP CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of
the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
undersigned counsel was appointed as C.J.A. counsel to represent Petitioner
pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE 39.1 and ยง
3006A(d)(6), Petitioner has not attached the affidavit which would otherwise be
required by 28 U.S.C. ยง 1746.
Respectfully submitted,
s/; Peter T. Patanzo
PETER T. PATANZO
Fla. Bar No. 174645
Benjamin, Aaronson, Edinger & Patanzo, PA
1700 East Las Olas Blvd., suite 202
Fort Lauderdale, Florida 33301
(954) 779-1700 phone
(954) 779-1771 fax
ppatanzo@benjaminaaronson.com
Counsel for Mr. Clotaire

